July 24, 2002
Audit Report No. 02-016


The FDIC’s Assessment of Corrective
Action Work Performed by Third-Party
Contractors
their completeness in addressing the underlying safety and soundness concerns. Accordingly, we
are not making recommendations in this report.


BACKGROUND

The FDIC generally institutes corrective actions to address weaknesses and problems found in
insured depository institutions during the examination process.4 When an institution with safety
and soundness weaknesses is identified, the FDIC initiates a corrective action process requiring
the institution to address its weaknesses. Under provisions of the Federal Deposit Insurance Act
(FDI Act), the FDIC has been granted broad enforcement powers to correct practices, conditions,
or violations of law that threaten a bank's safety and soundness. Depending on the extent and
severity of the identified problems, the FDIC may initiate informal and/or formal corrective
action. For institutions with significant weaknesses or those operating in a deteriorated financial
condition, the FDIC may oversee the re-capitalization, merger, closure, or other resolution of the
institution.

Corrective actions can prescribe that a third-party professional be engaged to provide assistance
in the corrective process. For example, a corrective action may require that a bank make
arrangements for an external audit of its financial statements to be performed by an independent
public accountant. Another corrective action might prescribe that a specialist be retained to
perform a loan portfolio analysis to assess the accuracy and methodology of the bank's internal
loan grading system and its implementation and effectiveness in recognizing and identifying
problem loans.

The FDIC generally uses informal actions to correct less severe problems that do not present an
immediate threat to an institution's viability and when it is believed that corrective action will be
taken without formal actions. Informal corrective actions are not legally enforceable. These
include board resolutions issued by the bank’s board of directors and memorandums of
understanding (MOUs) issued jointly by a bank’s board and a bank regulator. According to the
FDIC’s Formal and Informal Action Tracking system (FIAT), 811 informal actions were issued
in 1999 and 2000, including 340 memorandums of understanding.

The FDIC generally uses formal actions to address unsafe and unsound banking practices, to
correct violations of law, and to remove individuals who present an immediate threat to an
institution's safety and soundness. Formal actions also can be pursued in the event an informal
action proves to be ineffective in securing necessary corrective action. Formal actions are
notices and orders issued against insured depository institutions and individuals. Formal
corrective actions issued under Section 8 of the FDI Act are legally enforceable. These include,
for example, Section 8(b) orders to cease and desist (C&D) an unsafe or unsound practice or
4
 An on-site examination allows the regulator to determine the condition of an institution and supplies the regulator
with an understanding of the nature, relative seriousness, and ultimate cause of any problems identified, and thus
provides a factual foundation on which to base corrective measures, recommendations, and instructions. The FDIC
performs on-site examinations of state-chartered banks that are not members of the Federal Reserve System;
national banks are supervised by the Office of the Comptroller of the Currency; state and federally chartered savings
associations are supervised by the Office of Thrift Supervision; and banks with state charters that belong to the
Federal Reserve System are supervised by the Board of Governors of the Federal Reserve System.


                                                         2
violation of law and Section 8(c) temporary C&D orders. According to FIAT, 225 formal
actions were issued in 1999 and 2000, including 68 C&D orders. Formal actions also include
prompt corrective action directives related to undercapitalized banks, as provided in Section 38
of the FDI Act and orders to correct safety and soundness deficiencies as provided under Section
39 of the Act.


RESULTS OF AUDIT

The FDIC accepted work performed by third-party contractors for FDIC-supervised institutions
as generally meeting the requirements of the FDIC’s corrective actions. In addition, corrective
actions were generally completed on time.

Our sample of 33 corrective actions, including 13 MOUs and 20 C&D orders, contained 48
provisions with work performed by third parties:

   y   Twenty-five required the preparation of management plans and reports. These usually
       required a bank’s board of directors to hire outside contractors to review and assess the
       abilities of bank management and employees, salaries, and other personnel matters, or to
       formulate bank policy.
   y   Five provisions required other types of plans – two strategic plans, a profit plan, an
       interest rate risk plan, and one funds management plan.
   y   Twelve of the provisions required external audits, such as full-scope financial, balance
       sheet, or other types.
   y   Six provisions required reviews of specific areas such as compliance with the Bank
       Secrecy Act, loans, collateral, assets, or contracts.

Work Performed by Third-Parties Met FDIC Requirements

In 45 of the 48 provisions reviewed, the FDIC accepted third-party products or services as
meeting its requirements. For two of the remaining provisions, the FDIC accepted actions taken
instead of those prescribed. The final provision reviewed was not addressed before the bank’s
next examination, when its composite rating improved and the FDIC terminated the corrective
action order to facilitate sale of the bank.

One of the in-lieu-of actions accepted by the FDIC in fulfillment of a corrective action provision
was related to a management plan. In that instance, the bank’s board elected to implement all
recommendations from its contractor rather than prepare a written report addressing the
contractor's recommendations. The other in-lieu-of action accepted by the FDIC was related to
an external audit. The FDIC required the bank to hire an outside auditor to perform a full-scope
audit of the bank. Instead, the bank’s board contracted for an “agreed-upon procedures review,”
which is not as comprehensive. The FDIC accepted the review in fulfillment of the provision,
and the bank’s composite rating improved at its next exam.

The provision that was not fulfilled was also related to a management plan. In that instance, the
plan had not been completed before the bank’s next examination when its composite rating



                                                3
improved and the C&D order was terminated to facilitate the sale of the bank, thus eliminating
any further response regarding the provision.

Provisions Were Completed on Time

The corrective action provisions reviewed were completed timely. Specifically, 41 of 48
provisions we reviewed specified a timeframe for completion. Corrective actions addressing 38
of those 41 provisions were completed timely. The three provisions that were not completed
timely were all related to one management plan that was not completed. However, as explained
previously, there was no adverse effect in that instance, as the bank’s rating improved and its
C&D order was terminated.

DOS Reviewed the Corrective Actions

DOS regional office personnel reviewed the corrective actions included in our sample. In all
cases except one, there was evidence of review by DOS personnel, such as correspondence from
DOS, margin notes, underlining, and highlighting. However, in making our request for
documents, we did not request that regions provide the entire file. We only requested copies of
products produced by third-party contractors and any correspondence between the banks and the
FDIC. Thus, we could not conclude on the evidence of review for one action.

In a separate audit survey, we reviewed DOS’s efforts to monitor and ensure compliance with
corrective actions, including those performed by third-party contractors. In a memorandum to
the DOS Director, dated March 20, 2002, we reported that the DOS monitoring systems and
procedures were working as intended and that case managers were following applicable DOS
policies. A copy of this memorandum is provided as Appendix II of our report.


CORPORATION COMMENTS AND OIG EVALUATION

Our report does not include recommendations for corrective actions. However, we provided our
draft report to the Director of DOS. On July 8, 2002, the DOS Director provided a written
response to the draft report. Management’s response, concurring with our conclusions, is
presented in Appendix III to this report.




                                               4
                                                                                   APPENDIX I

                      OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether work performed by third-party contractors
for FDIC-supervised institutions met the requirements of corrective actions instituted by the
FDIC’s Division of Supervision (DOS). The audit concentrated on corrective actions where
third-party contractors were used to fulfill the requirements of individual provisions of the
corrective actions.

The audit included formal and informal corrective actions issued between January 1, 1999 and
December 31, 2000 that were still outstanding on December 31, 2000.

To accomplish our objective, we:

   •   Reviewed applicable laws, regulations, and guidelines, including the FDI Act, the DOS
       Manual of Examination Policies, Case Manager Handbook, the DOS Memorandum
       System, FDIC Directive System, and Financial Institution Letters (FILs).
   •   Reviewed the Formal and Informal Actions Procedures (FIAP) Manual.
   •   Accessed and became familiar with FDIC management systems and systems of record
       used to monitor and track corrective actions, such as:
           • BITS – Banking Information Tracking System – an umbrella system containing a
               number of related banking systems that provide users access to a variety of FDIC
               banking information data bases,
           • FIAT – Formal and Informal Action Tracking System – a subsystem of BITS
               used to track the progress of formal and informal actions,
           • ViSION – FDIC’s Virtual Supervisory Information On the Net which will replace
               the BITS system, and
           • The FDIC’s external Web site, http://www.FDIC.gov, which contains information
               on all insured institutions, including outstanding formal corrective actions issued
               against them.
   •   Identified all 1,036 corrective actions issued by the FDIC in 1999 and 2000 using the
       FIAT system.
   •   Judgmentally selected a sample of formal and informal corrective actions from those
       issued in all eight FDIC regions during 1999 and 2000 that were still outstanding on
       December 31, 2000.
   •   Reviewed a sample of 33 corrective actions consisting of 13 memorandums of
       understanding and 20 cease and desist orders containing a total of 48 provisions with
       work that was performed by third parties.

For each of the 48 provisions, we reviewed FDIC files, including:

   •   Monthly or quarterly progress reports from banks and related documents,
   •   Examination reports issued prior and subsequent to issuance of corrective actions and
       related documents,
   •   Bank and FDIC correspondence and other management information data,
   •   Problem bank memorandums, and
   •   Summary analyses of examination reports.



                                                5
                                                                                    APPENDIX I

We limited our assessment of DOS’s system of internal controls to gaining an understanding of
the division’s corrective action procedures when a third-party contractor is suggested or required
by the FDIC to assist an institution in fulfilling the requirements of an informal or formal
corrective action intended to address weaknesses. We did not test internal controls because in a
separate audit survey, Survey of the Division of Supervision’s Monitoring of Corrective Actions
(Assignment Number 2001-205), we reviewed the efforts of the DOS to monitor and ensure
compliance with corrective actions. Additionally, we did not review Government Performance
and Results Act reporting, test for fraud or illegal acts, or test for compliance with laws and
regulations because these items were not part of our audit objective. Finally, although we used
available information from FDIC’s computerized systems, we did not test the accuracy of data
generated by those systems because our focus was on the work performed by the third-party
contractors and the use of data was limited to determining the sample of corrective actions that
we reviewed. This audit was suspended from August 2001 through February 2002 during our
work on issues related to the failure of Superior Bank, FSB, Hinsdale, Illinois. We conducted
our audit from May 2001 through June 2002. The audit was conducted in accordance with
generally accepted government auditing standards.




                                                6
                                          APPENDIX II

    OIG MARCH 2002 MEMORANDUM
REGARDING THE DIVISION OF SUPERVISION’S
  MONITORING OF CORRECTIVE ACTIONS




                   7
    APPENDIX II




8
                       APPENDIX III

CORPORATION COMMENTS




         9
